  ~AMTRAK
      NATI ONA L RA ILROAD
      PASSENGER CORPORATION
                                          Office of Inspector General


Memorandum
To:           Gerald Sokol, Jr.,
              Chief Financial Officer
            ~~f,aI~
From:         f:fa~d R. Warren
              Assistant Inspector General, Audits

Date:          April 4, 2014

Subject:      Engagement Memo - Review of New Jersey High-Speed Rail
              Improvement Program (Project No. 009-2014)

The Office of Inspector General is initiating an audit of the New Jersey High-Speed Rail
Improvement project to upgrade 23 miles of right-of-way between Trenton and
New Brunswick, NJ. The objective of this audit is to assess the adequacy of the
Engineering department's project oversight of (1) contractual services focusing on the
areas of cost, schedule, performance, and contract administration, and (2) services
performed by Engineering department personnel.

During this audit, we plan to interview company personnel, particularly from the
Procurement, Engineering, and Finance departments, analyze documents associated
with the project, and review contract and invoice files. Requests for documents will be
made as our work progresses. We will work to minimize the impact by coordinating
interviews and observations with staff in advance.

Our work will be performed in accordance with Generally Accepted Government
Auditing Standards. Our interactions with the company will be consistent with P/I2.1.3
which sets forth the relationship between the OIG and the company. In particular,
section 7.0 of the policy discusses coordination between Amtrak officials and the OIG
on audits and evaluations. P/I2.1.3 can be found at
http://wiki.corp.nrpc/download/attachments/3586/0IG=Relationship+Policy+111101.pdf
?version=l



                       10 G Street, NE, 3W-300, Washington, D.C. 20002
                        202-906-4600 / Fraud Hotline 800-468-5469
We request that your office arrange an entrance conference for us with the appropriate
company officials at the earliest possible date. We will keep you advised of the status of
our work and any material changes in our audit objectives.

Todd Kowalski will be the Audit Manager for this project and will report to
Matt Simber, Senior Director, Audits. If you have any questions, please contact me
(202-906-4742 or by email at David.Warren@amtrakoig.gov) or Matt Simber
(215-349-1077 or by email at Matt.5imber@amtrakoig.gov) .


cc:   DJ Stadtler, Vice President Operations
      Stephen Gardner, Vice President, Northeast Corridor Infrastructure and
            Investment Development
      William Herrmann, Managing Deputy General Counsel
      Bruce Pohlot, Chief Engineer
      Paul Vilter, Acting Chief Logistics Officer
      Matthew Gagnon, Senior Director, Business Process and Management Control
      Melantha Paige, Senior Audit Liaison
